S. Ct. Case No.
11th Cir. Case No. 20-14418
N.D. Ga. Case No. 20-cv-04651-SDG
IN THE
SUPREME COURT OF THE UNITED STATES

L. LIN WOOD, JR.
Petitioner,
vs.
BRAD RAFFENSPERGER, et al.,
Respondents.

MOTION FOR EXPEDITED CONSIDERATION OF
THE PETITION FOR WRIT OF CERTIORARI

Petitioner L. LIN WOOD, JR., pursuant to Supreme Court Rule 21, moves to
expedite consideration of the petition for writ of certiorari, filed today, from the order
denying emergency relief in the United States Court of Appeals for the Eleventh
Circuit. Expedited consideration of the petition for writ of certiorari is warranted to
remedy the ongoing constitutional violations addressed in the petition, before the
December 14, 2020 “safe harbor” date under GA Code § 21-2-499 (2019) of Georgia
certifying its Presidential electors, and importantly, before the January 5, 2021
Senatorial run-off election.

1.

The questions presented are of overwhelming importance to the voters

in the State of Georgia, as well as for all the States and voters across the country,
because numerous courts are addressing election law provisions in an inconsistent
manner, that conflict with voter rights and decisions of this Court.
2.

Additionally, expedited consideration is warranted because of the

imminence of the run-off election, which is scheduled to take place on January 5,
2021, in which millions of Georgians will cast their votes for two Senate seats.
3.

Petitioner respectfully requests that the Court expedite review to decide

this case on the merits as soon as possible before the Senatorial run-off election date
- on January 5, 2021.
4.

In the alternative, Petitioner would request this Court treat the briefing

on the petition as merits briefs and decide the case without oral argument. Cf. Purcell
v. Gonzalez, 549 U.S. 1 (2006).
5.

In the event the Court believes that merits briefing and oral argument

would aid its resolution of the issues presented, Petitioner requests that the Court
set an expedited schedule for such briefing and argument.
6.

The Eleventh Circuit’s decision gave insufficient regard to the

Secretary of State’s unlawful and unconstitutional usurpation of the Georgia
Legislature’s plenary authority to prescribe “[t]he Times, Places, and Manner” for the
conduct of presidential and congressional elections. See Art. I, § 4, cl. L Bush v. Palm
Beach Cnty. Canvassing Bd., 531 U.S. 70, 77 (2000) (per curiam). That court
incorrectly rejected Petitioner’s constitutional challenge to the unlawful election

Page 2 of 8

procedure, which diluted his vote and violated his rights to equal protection under
the U.S. Constitution.
7.

The Eleventh Circuit’s decision affirming the denial of emergency relief

has now sanctioned the Secretary of State’s fundamentally and irredeemably flawed
procedures concerning the “manner” for the conduct of the presidential and senatorial
(federal) elections, in violation of constitutional mandates, which only underscores its
error. See Bush v. Gore, 531 U.S. 98 (2000).
8.

This Court, however, in its discretion, can review the judgment below

and enter an appropriate remedy. But only if it does so on an expedited basis. The
ordinary briefing schedules prescribed by Rules 15 and 25 of this Court would not
allow the case to be considered and decided before the results of the general election
must be finalized. The Electoral College “Safe Harbor” deadline for resolving
contested elections, and the electors of President and Vice President of each State
shall meet and give their votes on December 14, 2020. Congress must count the
electoral votes and an official declare a winner on January 6, 2021, and the
Inauguration Day for the President and Vice President commences at noon on
January 20, 2021, only 45 days from now, see U.S. Const, amend. XX. All of these
deadlines would expire before the completion of briefing, argument, and a decision on
the merits under the Court's default rules. See U.S. Sup. Ct. R. 15, 25.
9.

Unless this Court grants expedited consideration and relief, requiring

that the constitutional deficiencies be remedied almost immediately, it will be
impossible to repair the election results tainted by illegally cast ballots before

Page 3 of 8

Ignoration Day. Thus, without expedited review, Petitioner's appellate rights - and
this Court's power to resolve the important constitutional questions presented by this
election - will be irrevocably lost. Cf. Chafin v. Chafin, 568 U.S. 165, 178 (2013). In
other words, expedited review is, as a practical matter, the only way to protect this
Court's ability to conduct a plenary review of the Eleventh Circuit’s rulings
concerning the 2020 Presidential election.1
For all of these reasons, Petitioner respectfully requests that the Court grant
expedited review of the petition for certiorari and of the merits of this case. Such
expedited review would allow an orderly and timely resolution of the important
questions presented under the U.S. Constitution and federal law. Therefore, the
Court should order an appropriate exhilarated briefing scheduling and consideration
of this matter.
L. Lin Wood, Esq.
GA Bar No. 774588
L. LIN WOOD, P.C.
P.O. BOX 52584
Atlanta, GA 30305-0584
(404) 891-1402
lwood@linwoodlaw.com

1 This does not mean, however, that if the Court denies this Motion to Expedite the
case becomes moot. The issues presented in this appeal are capable of repetition yet
evading review. See FEC v. Wis. Right to Life, Inc., 551 U.S. 449, 462 (2007).
Page 4 of 8

/s/Harry W. MacDoueald
Harry W. MacDougald
Georgia Bar No. 463076
Caldwell, Propst & Deloach, LLP
Two Ravinia Drive, Suite 1600
Atlanta, GA 30346
(404) 843-1956 Office
(404) 843-2737 Fax

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been electronically
filed with this Court via CM/ECF and was furnished to all counsel on the attached
service list by e-mail on December 7th, 2020:
SERVICE LIST
CHRISTOPHER M. CARR
Deputy Attorney General
BRYAN K. WEBB
Deputy Attorney General
Russell D. Willard
Senior Assistant Attorney General
Charlene S. McGowan
Assistant Attorney General
40 Capitol Square SW
Atlanta, GA 30334
cmcgowan@law.ga.gov
404-458-3658 (tel)
Attorneys for State Defendants
Adam M. Sparks
Halsey G. Knapp, Jr.
Joyce Gist Lewis
Susan P. Coppedge
Adam M. Sparks
KREVOLIN AND HORST, LLC
Page 5 of 8

One Atlantic Center
1201 W. Peachtree Street, NW, Ste. 3250
Atlanta, GA 30309
Telephone: (404) 888-9700
Facsimile: (404) 888-9577
hknapp@khlawfirm.com
ilewis@khlawfirm.com
coppedge@khlawfirm.com
sparks@khlawfirm.com
Marc E. Elias*
Amanda R. Callais*
Alexi M. Velez*
Emily R. Brailey*
PERKINS COIE LLP
700 Thirteenth Street NW, Suite 800
Washington, DC 20005
Telephone: (202) 654-6200
melias@perkinscoie. com
acallais@perkinscoie.com
avelez@perkinscoie.com
ebrailev@perkinscoie .com
Kevin J. Hamilton*
Amanda J. Beane*
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, Washington 98101
Telephone: (206) 359-8000
khamilton@perkinscoie.com
abeane@perkinscoie.com
Gillian C. Kuhlmann*
PERKINS COIE LLP
1888 Century Park East, Suite 1700
Los Angeles, California 90067
Telephone: (310) 788-3900
gkuhlmann@perkinscoie.com
Matthew J. Mertens*
Georgia Bar No: 870320
PERKINS COIE LLP
1120 NW Couch Street, 10th Floor
Portland, Oregon 97209
Page 6 of 8

Telephone: (503) 727-2000
*Pro Hac Vice Application Pending
Counsel for Intervenor-Defendants, Democratic Party of Georgia (‘DPG”), DSCC,
and DCCC (“Political Party Committees”)
Bryan L. Sells
Law Office of Bryan L. Sells, LLC
P.O. Box 5493
Atlanta, GA 31107-0493
(404) 480-4212 (voice/fax)
brvan@brvansellslaw.com
John Powers*
ipowers@lawverscommittee.org
Kristen Clarke
kclarke@lawverscommittee.org
Jon M. Greenbaum*
jgreenbaum@lawverscommittee.org
Ezra D. Rosenberg*
erosenberg@lawverscommittee.org
Julie M. Houk*
jhouk@lawyerscommittee.org
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS UNDER LAW
1500 K Street NW, Suite 900
Washington, DC 20005
Telephone: (202) 662-8300
Susan Baker ManningA
Jeremy P. BlumenfeldA
Catherine North HounfodjiA
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
Telephone: +1.202.739.3000
Facsimile: +1.202.739.3001
susan.manning@morganlewis.com
ieremv.blumenfeld@morganlewis.com
catherine.hounfodii@morganlewis.com
wi11iam.childress@moreganlewis.com
chris.miller@morganlewis.com
beniamin.hand@morganlewis.com

Page 7 of 8

* admitted pro hac vice
A Pro hac vice admission pending
Counsel for Proposed Intervenors James Woodhall, Helen Butler, Melvin Ivey,
Members of the Proposed Intervenors the Georgia State Conference of the NAACP,
and the Georgia Coalition for the People’s Agenda

Page 8 of 8

